LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

June 15, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-1443:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

CANDACE AGUILERA, AKA CANDACE SGAGGIO V. CITY OF
COLORADO SPRINGS, COLORADO

Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondent Robert
Mitchell, on June 15, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020, on the Petitioner:
PETITIONER:
Candace Aguilera
1850 North Academy Blvd
Colorado Springs, CO 80909
(719) 994-8181
overclock420@hotmail.com
This service was effected by depositing one copy of a Respondent's Brief in
Opposition to Petition for Writ of Certiorari in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of June 2021.

